Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE RECOVERY AUDIT
 CONTRACTORS AND CMS’S
   ACTIONS TO ADDRESS
  IMPROPER PAYMENTS,
 REFERRALS OF POTENTIAL
FRAUD, AND PERFORMANCE



                    Daniel R. Levinson
                     Inspector General

                      August 2013
                     OEI-04-11-00680
EXECUTIVE SUMMARY: MEDICARE RECOVERY AUDIT CONTRACTORS
AND CMS’S ACTIONS TO ADDRESS IMPROPER PAYMENTS, REFERRALS
OF POTENTIAL FRAUD, AND PERFORMANCE, OEI-04-11-00680

WHY WE DID THIS STUDY
Recovery Audit Contractors (RAC) are designed to protect Medicare by identifying
improper payments and referring potential fraud to the Centers for Medicare & Medicaid
Services (CMS). Prior Government Accountability Office work has identified problems
with CMS’s actions to address improper payment vulnerabilities, and prior Office of
Inspector General (OIG) work has identified problems with CMS’s actions to address
referrals of potential fraud. Further, OIG has identified vulnerabilities in CMS’s
oversight of its contractors. Given the critical role of identifying improper payments,
effective oversight of RAC performance is important.

HOW WE DID THIS STUDY
We collected RAC Data Warehouse (i.e., electronic database) files from CMS and data
from RACs to determine their activities to identify improper payments and refer potential
fraud in fiscal years (FYs) 2010 and 2011. We also collected data from CMS regarding
activities to address vulnerabilities (i.e., improper payments exceeding $500,000 that
result from a specific issue) and referrals of potential fraud. Finally, we collected RAC
performance evaluations and performance evaluation metrics from CMS and determined
the extent that RAC performance evaluations addressed these metrics. We also compared
performance evaluation metrics to contract requirements to determine the extent that
these metrics addressed contract requirements.

WHAT WE FOUND
In FYs 2010 and 2011, RACs identified half of all claims they reviewed as having
resulted in improper payments totaling $1.3 billion. CMS took corrective actions to
address the majority of vulnerabilities it identified in FYs 2010 and 2011; however, it did
not evaluate the effectiveness of these actions. As a result, high amounts of improper
payment may continue. Additionally, CMS did not take action to address the six referrals
of potential fraud that it received from RACs. Finally, CMS’s performance evaluations
did not include metrics to evaluate RACs’ performance on all contract requirements.

WHAT WE RECOMMEND
We recommend that CMS (1) take action, as appropriate, on vulnerabilities that are
pending corrective action and evaluate the effectiveness of implemented corrective
actions; (2) ensure that RACs refer all appropriate cases of potential fraud; (3) review and
take appropriate, timely action on RAC referrals of potential fraud; and (4) develop
additional performance evaluation metrics to improve RAC performance and ensure that
RACs are evaluated on all contract requirements. CMS concurred with our first, second,
and fourth recommendations. CMS did not indicate whether it concurred with our third
recommendation but noted that it has reviewed the six RAC referrals of potential fraud in
our review.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings......................................................................................................10 

           In FYs 2010 and 2011, RACs identified half of all claims they 

           reviewed as having resulted in improper payments totaling 

           $1.3 billion………………………………………………...……..10 

           CMS took corrective action to address the majority of
           vulnerabilities it identified in FYs 2010 and 2011; however, it
           did not evaluate the effectiveness of these corrective actions……12
           CMS did not take action to address the six referrals of potential 

           fraud that it received from RACs in FYs 2010 and 

           2011……………… ........................................................................14 

           CMS’s performance evaluations did not include metrics to 

           evaluate RACs’ performance on all contract 

           requirements………..…………………………………………….16 

Conclusion and Recommendations ............................................................17 

Agency Comments and Office of Inspector General Response ………....19 

Appendix....................................................................................................21 

           A: Number and Percentage of Appealed Overpayment 

           Identifications by Claim Type in Fiscal Years 2010 and 

           2011………………………… ........................................................21 

           B: Map of Medicare Recovery Audit Contractor Regions............22 

           C: Agency Comments ...................................................................23 

Acknowledgments......................................................................................27 

                  OBJECTIVES
                      To determine the extent that:
                  1.	 Recovery Audit Contractors (RAC) identified improper payments;
                  2.	 the Centers for Medicare & Medicaid Services (CMS) took corrective
                      actions to address vulnerabilities;
                  3.	 RACs referred potential fraud to CMS and CMS took action on these
                      referrals; and
                  4.	 CMS evaluated RACs on all performance requirements.

                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act of
                  2003 mandated the establishment of a RAC demonstration project to
                  determine effectiveness in (1) identifying improper payments
                  (underpayments and overpayments) and (2) recouping overpayments in
                  Medicare Parts A and B.1 The demonstration project occurred in six States
                  from March 2005 to March 2008.2 During the demonstration project,
                  RACs identified over $1.03 billion in improper payments.3 Of these
                  improper payments, $992.7 million were overpayments and $37.8 million
                  were underpayments.
                  The Tax Relief and Health Care Act of 2006 required the Secretary of
                  Health and Human Services to establish a national RAC program by
                  January 1, 2010.4 To fulfill this requirement, CMS awarded competitive
                  contracts to four contractors to perform recovery audit functions in four
                  separate geographical regions. All four RAC regions were operational by
                  October 2009. See Appendix B for a map of States in each RAC region.


                  1
                    The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                  P.L. 108-173, Title III, § 306; CMS, The Medicare Recovery Audit Contractor Program:
                  An Evaluation of the 3-Year Demonstration. Accessed at http://www.cms.gov/Research-
                  Statistics-Data-and-Systems/Monitoring-Programs/recovery-audit-
                  program/downloads/RACEvaluationReport.pdf on August 22, 2012.
                  2
                    These six States were Arizona, California, Florida, Massachusetts, New York, and
                  South Carolina.
                  3
                    CMS, The Medicare Recovery Audit Contractor Program: An Evaluation of the 3-Year
                  Demonstration. Accessed at http://www.cms.gov/Research-Statistics-Data-and-
                  Systems/Monitoring-Programs/recovery-audit-
                  program/downloads/RACEvaluationReport.pdf on August 22, 2012.
                  4
                    The Tax Relief and Health Care Act of 2006, P.L. 109-432, Division B, § 302(h); Social
                  Security Act, § 1893(h); CMS, Implementation of Recovery Auditing at The Centers for
                  Medicare & Medicaid Services. August 2011. Accessed at
                  https://www.cms.gov/Recovery-Audit Program/Downloads/FY2010ReportCongress.pdf
                  on August 22, 2012.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   1
(OEI-04-11-00680)
                  Unlike other Medicare contractors, RACs are mandated to be paid on a
                  contingency-fee basis.5 Contingency fees are calculated as a percentage of
                  improper payments that are recovered (overpayments) or returned
                  (underpayments) to providers.6 RACs do not receive these fees until
                  improper payments are recovered or returned (i.e., the payments are
                  contingent on the recovery or return).
                  RAC Claims Review Process
                  RACs’ primary responsibility is to identify improper payments from
                  Medicare Part A and B claims that have been paid by claims processing
                  contractors.7 RACs analyze claims and review those most likely to
                  contain improper payments.8 RACs may also request and analyze
                  provider claim documentation to ensure services provided were reasonable
                  and necessary. Improper payments may include: (1) payment for items or
                  services that do not meet Medicare’s coverage and medical necessity
                  criteria, (2) payment for items that are incorrectly coded, and (3) payment
                  for services where the documentation submitted did not support the
                  ordered service.
                  Recovered and Returned Improper Payments. When RACs identify
                  improper payments, they notify the claims processing contractor of the
                  applicable claims. The claims processing contractor adjusts the claims to
                  reflect the proper payment amounts.9 If the improper payment is an
                  overpayment, the claims processing contractor sends a demand letter to
                  the provider to recover the improper payment.10 The demand letter
                  includes the overpayment amount, the reason for the overpayment, and
                  payment instructions. If the improper payment is an underpayment, the


                  5
                    Tax Relief and Health Care Act of 2006, P.L. 109-432, Division B, § 302(h)(1).
                  6
                    In FY 2011, RACs received 9 to 17.5 percent in contingency fee payments, depending
                  on the type of the claim with the improper payment. CMS, Recovery Auditing in the
                  Medicare and Medicaid Programs for Fiscal Year 2011. Accessed at
                  http://www.cms.gov/Research-Statistics-Data-and-Systems/Monitoring-
                  Programs/Recovery-Audit-Program/Downloads/FY2011-Report-To-Congress.pdf on
                  February 8, 2013.
                  7
                    The Patient Protection and Affordable Care Act, P.L. 111-148, § 6411, expanded the
                  RAC program to identify improper payments in Medicare Part D, Medicare Advantage,
                  and Medicaid claims. CMS awarded the Medicare Part D RAC contract to ACLR
                  Strategic Business Solutions in 2011, and this RAC began recouping improper payments
                  on CMS’s behalf in FY 2013. CMS is in the process of implementing a Medicare
                  Advantage RAC. Additionally, approximately 40 States have awarded Medicaid RAC
                  contracts.
                  8
                    CMS, Recovery Audit Program Final Statement of Work. Accessed at
                  https://www.cms.gov/Recovery-Audit-Program/Downloads/090111RACFinSOW.pdf on
                  August 22, 2012.
                  9
                    CMS, Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, § 100.5.
                  10
                     Prior to 2012, RACs sent demand letters to providers.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   2
(OEI-04-11-00680)
                  claims processing contractor notifies the provider and pays the provider
                  the underpaid amount.
                  RAC-identified improper payments are recorded in the RAC Data
                  Warehouse (i.e., electronic database) and monitored by CMS.11 When
                  RACs identify improper payments that result from a specific issue (e.g.,
                  incorrect coding of diagnoses and procedure codes), that issue is classified
                  as a vulnerability.12 The CMS Division of Recovery Audit Operations
                  provides further guidance that defines a vulnerability as a specific issue
                  associated with more than $500,000 in improper payments.13 When CMS
                  identifies a vulnerability, it may develop a corresponding corrective
                  action, such as conducting provider education or implementing
                  computerized “edits” (i.e., system processes) to prevent future improper
                  payments.
                  CMS also uses the RAC Data Warehouse to prevent RACs from reviewing
                  claims that have already been reviewed or that are under review by other
                  CMS contractors or law enforcement. 14 To do this, CMS contractors and
                  law enforcement access the RAC Data Warehouse and exclude or suppress
                  applicable claims from RAC review. Excluded claims include those that
                  have already been reviewed by other CMS contractors. Suppressed claims
                  include those that are currently under investigation by law enforcement or
                  are under fraud/benefit integrity review by CMS contractors.15
                  Provider Appeals. Providers may appeal RAC-identified overpayments.
                  Once a provider requests an appeal, overpayment recoupment must stop
                  until a final determination has been made.16 There are five progressive
                  levels in the appeals process.17 RACs do not receive contingency fees for
                  overpayments that are appealed and ruled in the provider’s favor (i.e.,
                  overturned appeals) at any of the five levels. CMS tracks appeals
                  information in the RAC Data Warehouse.

                  11
                     CMS, Recovery Audit Program Final Statement of Work. Accessed at
                  https://www.cms.gov/Recovery-Audit-Program/Downloads/090111RACFinSOW.pdf on
                  August 22, 2012. 

                  12
                     CMS, Standard Operating Protocol: Vulnerability Tracking Corrective Action

                  Process, February 7, 2011. 

                  13
                     CMS communicated this guidance to OIG during meetings in 2012.

                  14
                     Other contractors may include claims processing contractors or program integrity

                  contractors.

                  15
                     CMS, Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, § 100.4.

                  16
                     Social Security Act, § 1893(f)(2). This applies to overpayments that are appealed

                  within 30 days of the date of the demand letter. 

                  17
                     The five appeals levels include (1) redetermination made by a claims processing

                  contractor, (2) reconsideration made by a Qualified Independent Contractor (QIC),

                  (3) Administrative Law Judge hearing, (4) appeals council review, (5) Federal District
                  Court review. CMS contracts with QICs to process second-level appeals, or
                  reconsiderations.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   3
(OEI-04-11-00680)
                  RAC Referrals of Potential Fraud. RACs’ primary responsibility is to
                  review claims for improper payments. However, if RACs encounter
                  potential fraud, they are required to refer the provider to CMS.18 RACs
                  may continue to review claims that they have referred for potential fraud
                  unless law enforcement or other CMS contractors instruct RACs to stop
                  their reviews. Additionally, if improper payments are identified on claims
                  included in fraud referrals, RACs receive contingency fees unless they are
                  instructed to stop their review of these claims. RACs also refer external
                  notifications (e.g., complaints from provider employees or beneficiaries)
                  of potentially fraudulent providers to CMS.
                  CMS Actions on Vulnerabilities and Referrals of Potential
                  Fraud
                  A 2011 CMS policy tasks various CMS components with responsibility
                  for addressing vulnerabilities and referrals of potential fraud.19
                  CMS Corrective Actions on Vulnerabilities. The CMS Division of Data
                  Analysis, in collaboration with the CMS Division of Recovery Audit
                  Operations, monitors improper payment amounts. CMS classifies any
                  specific issue resulting in more than $500,000 in improper payments as a
                  vulnerability, or “major finding.” These vulnerabilities receive high
                  priority for corrective action; however, CMS determines which
                  vulnerabilities it should address on the basis of several factors, such as
                  improper payment amount and geographic scope (e.g., whether the
                  vulnerability spans multiple RAC regions).20, 21, 22 Vulnerabilities and
                  applicable corrective actions are recorded in the Improper Payment
                  Prevention Plan. Additionally, the Division of Data Analysis is
                  responsible for evaluating corrective actions and determining their
                  effectiveness in reducing improper payments.23 Specifically, CMS does

                  18
                     CMS, Recovery Audit Program Final Statement of Work. Accessed at
                  https://www.cms.gov/Recovery-Audit-Program/Downloads/090111RACFinSOW.pdf on
                  August 22, 2012. Examples of fraud may include incorrect reporting of diagnoses to
                  maximize payments or billing for services not provided. CMS, Medicare Program
                  Integrity Manual, Pub. No. 100-08, ch. 4, § 4.2.1.
                  19
                     CMS, Standard Operating Protocol: Vulnerability Tracking Corrective Action
                  Process, February 7, 2011. 

                  20
                     CMS may determine various corrective actions are appropriate, such as computerized

                  edits or provider education. CMS may also determine that no action is necessary. 

                  21
                     CMS, Standard Operating Protocol: Vulnerability Tracking Corrective Action
                  Process, February 7, 2011.
                  22
                     While vulnerabilities may span multiple regions, CMS calculates improper payment
                  amounts identified by individual RAC regions only when determining whether they meet
                  the Division of Recovery Audit Operations’ vulnerability threshold. Government
                  Accountability Office (GAO), Greater Prepayment Control Efforts Could Increase
                  Savings and Better Ensure Proper Payment, GAO-13-102, November 2012.
                  23
                     CMS, Standard Operating Protocol: Vulnerability Tracking Corrective Action
                  Process, February 7, 2011.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   4
(OEI-04-11-00680)
                  not consider corrective actions closed until it has conducted analyses to
                  determine their effectiveness.24
                  CMS Actions on RAC Referrals of Potential Fraud. The CMS Project
                  Officer tracks the submission of RAC referrals of potential fraud and
                  forwards them to the CMS Center for Program Integrity (CPI) for
                  potential action. 25 Action may include referring the provider to program
                  integrity contractors or law enforcement. CMS also provides training to
                  RACs to help them identify potentially fraudulent claims or providers.
                  CMS Activities To Evaluate RAC Performance
                  The Federal Acquisition Regulation mandates that CMS evaluate
                  contractor performance.26 These evaluations enable CMS to provide
                  feedback to contractors regarding their performance and determine
                  whether to renew a company’s contract. CMS may reduce contractor
                  workloads or take other necessary action, such as reducing payments to
                  contractors, if it determines that contractors are not meeting their
                  performance requirements.
                  RAC Annual Performance Evaluations. CMS conducts RAC annual
                  performance evaluations at intervals of no less than 12 months after the
                  contract award date. RACs are assessed on the basis of performance
                  evaluation metrics within categories established in the Contractor
                  Performance Assessment Reporting System (CPARS) policy guide.
                  These categories include: (1) Business Relations, (2) Quality of Product
                  or Service, (3) Schedule/Timeliness, (4) Management of Key Personnel,
                  and (5) Utilization of Small Business. For each category, CMS provides a
                  narrative describing RAC performance against performance evaluation
                  metrics and assigns a rating.27 However, CMS does not provide an overall
                  performance rating, such as the average of all category ratings.




                  24
                     Ibid. 

                  25
                     CMS merged the Medicaid and Medicare program integrity groups under one 

                  management structure in 2010 to create CPI. CMS, CPI Key Antifraud Activities. 

                  Accessed at http://www.cms.gov/Medicare-Medicaid-Coordination/Fraud-
                  Prevention/MedicaidIntegrityProgram/downloads/cpiinitiatives.pdf on October 12, 2012. 

                  26
                     48 CFR § 42.1502(a). 

                  27
                     RACs may receive five possible ratings for individual categories in the annual report. 

                  These include: (1) unsatisfactory, (2) marginal, (3) satisfactory, (4) very good, and
                  (5) excellent.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   5
(OEI-04-11-00680)
                  CMS records completed performance reports in CPARS for RACs to
                  access and view.28 After reports have been recorded in CPARS, RACs
                  have 30 days to review and respond if they disagree with the ratings that
                  CMS has given them.
                  Related Work
                  In 2010, GAO reported that CMS lacked an effective process to address
                  vulnerabilities identified during the 3-year RAC demonstration project
                  (2005–2008).29 GAO also determined that by January 2010, CMS had not
                  addressed approximately 60 percent of improper payment vulnerabilities
                  identified during the demonstration project. GAO recommended that
                  CMS implement a process to decide on the appropriate response to
                  address vulnerabilities. GAO also recommended that the agency act
                  promptly to address vulnerabilities. CMS concurred with both of these
                  recommendations.
                  OIG has also identified vulnerabilities in CMS’s oversight of its
                  contractors. Given the critical role of identifying improper payments,
                  effective oversight of these contractors’ performance is important. In
                  2010, the Office of Inspector General (OIG) reported that RACs referred
                  two cases of potential fraud to CMS during the demonstration project.30
                  However, CMS stated that it did not receive any referrals of potential
                  fraud during this time. The report also indicated that RACs had not
                  received formal training and guidance from CMS to help them identify
                  fraud. OIG recommended that CMS require RACs to receive mandatory
                  training on the identification and referral of fraud. CMS concurred with
                  this recommendation.

                  METHODOLOGY
                  We collected RAC Data Warehouse files from CMS and data from RACs
                  to determine activities performed to identify improper payments and refer

                  28
                     RACs may view only reports specific to their performance and may not review reports
                  from other regions and/or contractors. Additionally, CPARS helps the Government
                  provide current and accurate data on contractor performance for use in source selections
                  through the Past Performance Informational Retrieval System (PPIRS). For instance,
                  completed performance assessments in PPIRS are used as a resource in awarding
                  contracts and orders to contractors that consistently provide quality, timely products and
                  services that adhere to contractual requirements. Department of Defense, Contractor
                  Performance Assessment Reporting System Policy Guide. Accessed at
                  http://www.cpars.csd.disa.mil/cparsfiles/pdfs/DoD-CPARS-Guide.pdf on November 14,
                  2012. CMS performance evaluations are retained in CPARS. The Department of
                  Defense is responsible for managing this system.
                  29
                     GAO, Medicare Recovery Audit Contracting: Weaknesses Remain in Addressing
                  Vulnerabilities to Improper Payments, Although Improvements Made to Contractor
                  Oversight, GAO-10-143, March 2010.
                  30
                     OIG, Recovery Audit Contractor’s Fraud Referrals, OEI-03-09-00130, February 2010.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   6
(OEI-04-11-00680)
                  potential fraud in FYs 2010 and 2011. We collected data from CMS
                  regarding activities to address vulnerabilities resulting from
                  RAC-identified improper payments and referrals of potential fraud. We
                  also collected RAC performance evaluations and performance evaluation
                  metrics from CMS. Both RACs and CMS submitted documentation to
                  support their responses and we followed up with them, as appropriate. All
                  four RACs were operational during our timeframe and were included in
                  our review.
                  RAC Identification of Improper Payments
                  RAC Identification of Improper Payments. We collected RAC Data
                  Warehouse files in June 2012 and calculated the number and dollar
                  amount of improper payments that RACs identified and the amounts that
                  were recovered from or returned to providers in FYs 2010 and 2011. We
                  analyzed claims within the RAC Data Warehouse to determine (1) the
                  percentage of improper payment amounts recovered from or returned to
                  providers in each State and RAC region, (2) the provider types with the
                  largest dollar amounts of recovered or returned improper payments, and
                  (3) the reasons (e.g., coding or billing mistakes) for the recovered or
                  returned improper payments. We did not determine the accuracy of
                  RACs’ improper payment determinations, nor did we assess the burden
                  RACs placed on providers for requesting claim documentation (e.g.,
                  medical records).
                  We also collected from CMS the number of claims that RACs reviewed
                  and the overpayment identifications that providers appealed in FYs 2010
                  and 2011. However, we did not analyze the accuracy of appeals
                  determinations (e.g., overturned in the provider’s favor). Finally, we
                  analyzed claims within the RAC Data Warehouse files to determine
                  whether providers received improper payments for billing potentially
                  fraudulent claims. As is our typical process, we will forward to OIG’s
                  Office of Investigations (OI) any potential fraud that we identified so that
                  OI may determine the appropriate course of action.
                  CMS Actions on Vulnerabilities and RAC Referrals of Potential
                  Fraud
                  CMS Corrective Actions on Vulnerabilities. In May and June 2012, we
                  collected all vulnerabilities that CMS identified in FYs 2010 and 2011.31
                  We calculated the amount of improper payments associated with these
                  vulnerabilities and determined the action that CMS took to address them.32

                  31
                     These data were provided to OIG in the Improper Payment Prevention Plan. CMS may
                  identify vulnerabilities resulting from region-specific or national issues. 

                  32
                     To make this determination, we asked CMS to describe and provide documentation 

                  regarding the actions it had taken to address vulnerabilities during our time frame. 

Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   7
(OEI-04-11-00680)
                  We considered a corrective action to have been taken if CMS had taken
                  steps to address the vulnerability, such as sending technical direction
                  letters to contractors or putting computerized edits into place to prevent
                  improper payments.33 Additionally, if CMS indicated that no action was
                  necessary to address the vulnerability, we considered this a corrective
                  action. For example, if CMS determined that no action was necessary
                  because a forthcoming policy would address the vulnerability. However,
                  we did not consider a corrective action to be taken if CMS had only
                  reviewed or discussed the vulnerability.
                  We asked CMS to specify the dates that it took corrective actions. If CMS
                  had not taken corrective actions, we followed up to determine why. We
                  then calculated the length of time between CMS’s identifying a
                  vulnerability and taking corrective action on it.34 In addition, we collected
                  data from CMS that documented whether it had evaluated the
                  effectiveness of corrective actions. Using these data, we identified the
                  number of corrective actions for which CMS had evaluated effectiveness.
                  We considered a corrective action to have been evaluated for effectiveness
                  if CMS provided documentation that it had determined whether the
                  corrective action had reduced improper payments or affected provider
                  billing patterns. Finally, we collected any documents that described
                  CMS’s processes or criteria for evaluating corrective actions.
                  CMS Actions on Referrals of Potential Fraud. We collected
                  documentation of referrals of potential fraud that CMS received from
                  RACs in FYs 2010 and 2011. For each referral, we collected the referral
                  date, provider identification number, name of the RAC that sent the
                  referral, reason for the referral, and resulting CMS actions (e.g., whether
                  CMS referred the provider to CPI for further review). We requested
                  information from CMS from October to November 2012 to determine
                  whether and how it had addressed these referrals.
                  We also asked CMS to provide the dates that it or other agencies (e.g.,
                  Department of Justice) provided training to RACs on fraud identification
                  and the referral process. We collected documentation, such as slides or
                  handouts, from these sets of training.

                  33
                     Technical direction letters provide additional details and guidance to contractors about
                  tasks required of them. Contractors incorporate edits in their claims processing systems
                  to verify and validate claims data by detecting errors or potential errors. Edits also verify
                  that certain data are consistent and appropriate. CMS, Medicare Administrative
                  Contractor Workload Implementation Handbook (Legacy-to-MAC), ch. 4, § 4.10.3.2.
                  Accessed at http://www.cms.gov/Medicare/Medicare-
                  Contracting/MedicareContractingReform/Downloads/Handbooks/Legacy2MACImp.pdf
                  on February 3, 2012. 

                  34
                     We used the date that vulnerabilities were added to the Improper Payment Prevention

                  Plan as the date CMS identified them. 

Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   8
(OEI-04-11-00680)
                  RAC Performance Evaluations
                  In April and May 2012, we collected the records for the annual RAC
                  performance evaluations that CMS conducted in 2010 and 2011 and the
                  performance evaluation metrics that CMS used.35 We compared these
                  items to determine the extent that RAC performance evaluations addressed
                  performance evaluation metrics. We also compared RAC performance
                  evaluation metrics to RAC contract requirements to determine the extent
                  that performance evaluation metrics addressed contract requirements.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  35
                       Performance periods are from February to February each year.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   9
(OEI-04-11-00680)
                  FINDINGS
                  In FYs 2010 and 2011, RACs identified half of all claims
                  they reviewed as having resulted in improper
                  payments totaling $1.3 billion
                  In FYs 2010 and 2011, RACs reviewed 2.6 million claims from
                  approximately 292,000 providers.36 During this period, RACs identified
                  approximately 1.3 million claims with improper payments (50 percent)
                  that totaled nearly $1.3 billion.37 Of this amount, $903 million was
                  recovered from or returned to providers in FYs 2010 and 2011.38, 39
                  Approximately $768 of the $903 million was recovered from providers
                  ($53 million in FY 2010 and $715 million in FY 2011). The remaining
                  $135 million was returned to providers ($15 million in FY 2010 and
                  $120 million in FY 2011).
                  Over half (57 percent) of all recovered or returned improper payments
                  resulted from medical services being delivered in inappropriate facilities
                  (32 percent) or providers billing incorrect codes on Medicare claims
                  (25 percent).40 Improper payments also resulted from other sources, such
                  as providers billing Medicare for services for deceased beneficiaries. For
                  instance, CMS recovered $3 million in improper payments stemming from
                  approximately 27,000 claims for services billed for deceased



                  36
                     There were a total of 2,608,481 claims from 292,265 unique providers.
                  37
                     There were a total of 1,289,056 claims with $1,261,328,388 in identified improper
                  payments. However, some of these identified improper payments ultimately may not
                  have been recovered from or returned to providers for various reasons, such as CMS
                  determining that the RAC made an incorrect improper payment determination.
                  38
                     The average recovered overpayment amount in FYs 2010 and 2011 was $507.
                  Recovered overpayments during this time ranged from less than $1 to over $156,000.
                  The average returned underpayment amount in FYs 2010 and 2011 was $2,171.
                  Returned underpayments during this time ranged from less than $1 to approximately
                  $407,000. RACs typically do not forward any claims to the claims processing contractor
                  for adjustment if the overpayment amount is less than $10 or the underpayment amount is
                  less than $1. Recovered and returned amounts below these thresholds may have been due
                  to various reasons, such as partial improper payment amounts being collected.
                  39
                     Our reported recovered and returned amount ($903 million) differs from CMS’s
                  reported amount by approximately $127 million. In 2011 and 2013, CMS released its
                  annual reports to Congress, as required by section 1893(h) of the Social Security Act.
                  These reports stated that RACs recovered or returned improper payments of
                  approximately $1.03 billion in FYs 2010 and 2011. Our amount differs because we
                  analyzed recovered or returned improper payments that we could reliably match to
                  improper payments identified in FYs 2010 and 2011.
                  40
                     An example of medical services being delivered in an inappropriate facility could
                  include providing services to a beneficiary in an inpatient setting when the beneficiary’s
                  medical record indicated that these services should have been provided in a different, less
                  intensive and less costly setting. An example of a provider billing for incorrect codes on
                  a Medicare claim could include billing incorrect diagnosis codes.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   10
(OEI-04-11-00680)
                  beneficiaries.41 These improper payments represented less than one-half of
                  one percent of total improper payments recovered or returned in FYs 2010
                  and 2011.
                  Two provider types accounted for 93 percent of all recovered
                  or returned improper payments, and approximately one
                  quarter of improper payments were for providers in two States
                  Claims from two provider types accounted for 93 percent of all recovered
                  or returned improper payments: inpatient hospitals (88 percent) and
                  physicians or nonphysician practitioners (5 percent).42 Additionally, the
                  five providers with the largest improper payment amounts were hospitals.
                  Improper payments for these hospitals were $18.4 million in FYs 2010
                  and 2011, which was approximately 2 percent of total improper payments.
                  Approximately 87 percent of these improper payments resulted from
                  medical services being delivered in inappropriate facilities.43 Further,
                  approximately one quarter (23 percent) of all recovered or returned
                  improper payments were for providers in California, with $156 million in
                  such payments, and in New York, with $49 million in such payments.44
                  Providers did not appeal RACs’ decisions for approximately
                  94 percent of claims identified with overpayments, but of those
                  that were appealed, almost half were overturned
                  In FYs 2010 and 2011, RACs identified approximately 1.1 million claims
                  with overpayments. During this time, providers appealed 65,198
                  (6 percent) of these overpayments. Of those appealed, nearly half
                  (44 percent) were overturned in the providers’ favor.
                  Previous OIG work on overpayments appeals found that 56 percent of all
                  those appealed, not just those identified by RACs, were overturned at the
                  Administrative Law Judge level in FY 2010.45, 46 This overall percentage is
                  41
                     Approximately $75,000 was recovered in FY 2010 and the remaining $2.9 million in
                  FY 2011. These payments may represent potentially fraudulent billing that RACs could
                  refer to CMS for action.
                  42
                     Nonphysician practitioners include nurse practitioners, physician assistants, or certified
                  nurses.

                  43
                     This could include providing services to a beneficiary in an inpatient setting when the 

                  beneficiary’s medical record indicated that these services should have been provided in a 

                  different, less intensive, and less costly setting. 

                  44
                     California had the largest number of Medicare Part A and B beneficiaries of any State 

                  in 2010, while New York had the fourth largest. CMS, Medicare Enrollment Data by

                  State and Age as of July 2010. Accessed at http://www.cms.gov/Research-Statistics-
                  Data-and-Systems/Statistics-Trends-and-
                  Reports/MedicareEnrpts/Downloads/Sageall10.pdf. 

                  45
                     OIG, Improvements Are Needed at the Administrative Law Judge Level of Medicare
                  Appeals, OEI-02-10-00340, November 2012. 

                  46
                     Overpayments were appealed by providers, beneficiaries, and State Medicaid agencies. 

                  Additionally, this percentage includes only appeals that were fully overturned.

Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   11
(OEI-04-11-00680)
                      generally consistent with the percentage of RAC-identified overpayments
                      appeals that were overturned in the providers’ favor that we found when
                      conducting this evaluation. This may indicate that the high Medicare
                      overpayment appeal overturn rate is not limited to RACs.
                      Overturned overpayments in FYs 2010 and 2011 represented 3 percent of
                      total claims identified as having overpayments in FYs 2010 and 2011, and
                      accounted for approximately $40 million. See Table 1 for the number and
                      percentage of appealed overpayment identifications in each RAC region
                      for FYs 2010 and 2011. See Appendix A for the number and percentage of
                      appealed overpayment identifications in FYs 2010 and 2011, by claim
                      type. See Appendix B for a map of RAC regions and the States in each
                      region.
Table 1: Number and Percentage of Appealed Overpayment Identifications in FYs 2010
and 2011
                                                                                                                         Percentage of
                                                                                                                             Appealed
                                                                                  Number of         Percentage of
                 Number of              Number of         Percentage of                                                  Overpayment
                                                                                   Appealed             Appealed
RAC                   Claims         Overpayment          Overpayment                                                   Identifications
                                                                               Overpayment          Overpayment
Region       Identified With        Identifications      Identifications                                                   Overturned
                                                                              Identifications      Identifications
             Overpayments               Appealed*             Appealed                                                   out of Claims
                                                                                 Overturned           Overturned
                                                                                                                        Identified With
                                                                                                                        Overpayments
A                    131,037                  3,588                   3%                   955                 27%                 1%

B                    110,468                 15,726                  14%                 6,303                 40%                 6%

C                    335,338                  9,928                   3%                 3,612                 36%                 1%

D                    490,168                 35,956                   7%               17,945                  50%                 4%

    Total          1,067,011                 65,198                   6%               28,815                  44%                 3%

Source: OIG analysis of CMS appeals data, 2012. 

*Because the outcomes could not be linked to specific RAC regions, these numbers exclude 3,968 unspecified appeals that were 

adjudicated by Administrative Law Judges. 




                      CMS took corrective action to address the majority of
                      vulnerabilities it identified in FYs 2010 and 2011;
                      however, it did not evaluate the effectiveness of these
                      corrective actions
                      CMS classifies any specific issue resulting in more than $500,000 in
                      improper payments as a vulnerability. In FYs 2010 and 2011, CMS
                      identified 46 vulnerabilities that resulted in improper payments. The
                      majority of these vulnerabilities (26 of 46) were for improper payments
                      under Medicare Part B. Examples included providers billing add-on codes
                      without primary codes or indicating the incorrect place of service on
                      claims for services performed in ambulatory surgical centers or outpatient
                      hospitals. The remaining vulnerabilities (20 of 46) were for improper
                      payments under Medicare Part A or in the area of durable medical

Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance                       12
(OEI-04-11-00680)
                  equipment (DME), such as DME suppliers and physicians billing
                  separately for bundled services or billing services or supplies for deceased
                  beneficiaries.47 By June 2012, these vulnerabilities had resulted in
                  improper payments of approximately $1.9 billion.
                  CMS took action to address 28 vulnerabilities that resulted in
                  $1.86 of the $1.9 billion in improper payments
                  When CMS identifies a vulnerability, it may develop a corresponding
                  corrective action to prevent future improper payments. By June 2012,
                  CMS took corrective action to address the majority (28 of 46) of
                  vulnerabilities identified in FYs 2010 and 2011. These corrective actions
                  addressed almost all ($1.86 billion of $1.9 billion) improper payments that
                  resulted from identified vulnerabilities. Corrective actions included
                  contractor technical direction letters, computerized edits, and mailing
                  quarterly provider education letters. We did not find that CMS determined
                  any of the vulnerabilities required no action in order to address them.
                  CMS did not take action to address 18 vulnerabilities that
                  resulted in $31 million in improper payments
                  As of June 2012, CMS had not taken corrective action on the remaining
                  18 of 46 vulnerabilities identified in FYs 2010 and 2011. These
                  vulnerabilities resulted in $31 million in improper payments. As of June
                  2012, these 18 vulnerabilities were pending corrective action an average
                  of 375 days, with 2 pending over 700 days.
                  CMS reported different reasons for not taking corrective actions on 18 of
                  46 vulnerabilities. For instance, one vulnerability resulted from
                  underpayments made to multiple providers. CMS stated in June 2012 that
                  it considered this vulnerability to be a low priority and planned to take
                  corrective action after addressing higher priority vulnerabilities. CMS
                  also reported that it had determined the appropriate corrective action for 8
                  of these 18 vulnerabilities but that actions were not scheduled to begin
                  until late 2012. CMS had not determined corrective actions for the
                  remaining 9 vulnerabilities because corrective actions were on hold or
                  CMS planned to discuss potential actions at a later date. See Table 2 for
                  the June 2012 status of vulnerabilities identified in FYs 2010 and 2011, by
                  claim type.




                  47
                    The DME benefit is covered under Medicare Part B; however, we analyzed DME
                  vulnerabilities separately from Part B vulnerabilities because CMS records DME claims
                  in separate data files and separates DME vulnerabilities from other Part B vulnerabilities.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   13
(OEI-04-11-00680)
         Table 2: June 2012 Status of Vulnerabilities Identified in FYs 2010 and 2011, by
         Claim Type
                                                               Status of Vulnerabilities


           Claim                                       Corrective Actions Taken            Corrective Actions Not Taken
           Type             Number of
                         Vulnerabilities
                                                                     Dollar Amount                       Dollar Amount
                                                 Number of                               Number of
                                                                       of Improper                         of Improper
                                              Vulnerabilities                         Vulnerabilities
                                                                          Payments                           Payments
           DME                          15                   12        $56,032,825                 3          $981,565

           Part A                        5                    4      $1,735,100,796                1         $3,031,926

           Part B                       26                   12        $72,962,567                14       $26,916,228

              Total                     46                   28      $1,864,096,188               18       $30,929,719

             Source: OIG analysis of CMS vulnerability data, 2012.

                    CMS did not evaluate the effectiveness of implemented 

                    corrective actions 

                    CMS policy states that it is responsible for evaluating corrective actions
                    and determining their effectiveness in reducing improper payments.
                    Specifically, CMS does not consider corrective actions closed until it has
                    conducted analyses to determine their effectiveness.48 By June 2012, CMS
                    had not evaluated the effectiveness of corrective actions it took to address
                    28 of 46 vulnerabilities totaling $1.86 billion in improper payments. CMS
                    reported that it had not evaluated corrective actions because of lack of
                    resources and the difficulty in determining causal relationships between
                    corrective actions and reductions in improper payments. CMS also
                    reported that some corrective actions should be in place for several years
                    before it evaluates them. For instance, for computerized edits, CMS
                    generally waits 1–2 years to evaluate effectiveness. However, if CMS
                    does not evaluate corrective actions, it cannot determine whether its
                    corrective actions are effectively addressing vulnerabilities, which may
                    result in continued high amounts of improper payments.
                    CMS did not take action to address the six referrals of
                    potential fraud that it received from RACs in FYs 2010
                    and 2011
                    RACs’ primary responsibility is to review claims for improper payments,
                    but if RACs encounter potentially fraudulent claims, they are required to

                    48
                       CMS, Standard Operating Protocol: Vulnerability Tracking Corrective Action
                    Process, February 7, 2011.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance           14
(OEI-04-11-00680)
                  refer the providers that submitted the claims to CMS.49 RACs may
                  continue to review claims that they have referred for potential fraud unless
                  law enforcement or other CMS contractors instruct RACs to stop their
                  reviews.
                  In FYs 2010 and 2011, three of four RACs referred a total of six providers
                  to CMS for potential fraud. RACs referred all six providers on the basis
                  of external notifications (e.g., complaints from providers’ employees of
                  falsifying medical documentation or billing for supplies that were never
                  provided).50 Region B made three of the six referrals of potential fraud
                  and Regions A and D made the remaining three referrals.51 In contrast, the
                  Region C RAC did not submit any fraud referrals to CMS in FYs 2010 or
                  2011. This RAC initially identified two providers engaged in potentially
                  fraudulent activity; however, it determined that these providers were
                  already under investigation and requested that applicable claims be
                  suppressed in the RAC Data Warehouse.52
                  CMS indicated that it received the six referrals of potential fraud from
                  RACs. However, by November 2012 it had not taken action (e.g., CPI
                  review) to address them.53
                  Additionally, in response to a previous OIG report, in FY 2010 CMS
                  provided RACs with two sets of training that directly addressed fraud
                  identification and referral.54, 55 One focused on examples of fraudulent
                  schemes and billing practices, while the other covered the referral process



                  49
                     All claims that RACs review have been screened to ensure they are not associated with
                  ongoing reviews of potential fraud or ongoing investigations. 

                  50
                     None of these referrals resulted from RACs identifying improper payments for 

                  potentially fraudulent billing, such as providers billing for services after a beneficiary’s 

                  death. 

                  51
                     Region A made two referrals and Region D made one referral in FYs 2010 and 2011. 

                  52
                     According to the Region C RAC, one of these providers allegedly added information to

                  medical records after services were provided. The other provider had been asked by the 

                  RAC to return overpayments but the RAC had no record of their being returned. 

                  Further, the provider—although claiming to have returned the overpayments—had no

                  documentation to give the RAC.

                  53
                     OI has investigated three of these providers for potential fraud. One investigation was 

                  opened in 2011 and another in 2012. Neither investigation resulted in further actions, and 

                  both are now closed. The third provider was under investigation during our review

                  timeframe and remains under investigation. According to OI, two of the three provider 

                  investigations were initiated from hotline complaints and the other from a contractor 

                  referral.

                  54
                     Training was conducted by other agencies, such as the OIG or Department of Justice;
                  OIG, Recovery Audit Contractors’ Fraud Referrals, OEI-03-09-00130, February 2010.
                  55
                     CMS provided two additional sets of training in FY 2010 that did not cover referral or
                  identification of fraud. These sets of training covered the False Claims Act and
                  affirmative civil enforcement.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   15
(OEI-04-11-00680)
                  for potential fraud. However, CMS did not provide related training to
                  RACs in FY 2011.
                  CMS’s performance evaluations did not include
                  metrics to evaluate RACs’ performance on all contract
                  requirements
                  In 2010 and 2011, CMS evaluated RACs on all metrics in their
                  performance evaluations. However, CMS’s performance evaluations did
                  not include metrics to evaluate RACs’ performance on all contract
                  requirements. Specifically, CMS did not evaluate RACs on the extent that
                  they identified improper payments. Further, four of the eight performance
                  evaluations that we reviewed did not describe RACs’ ability, accuracy, or
                  effectiveness in identifying improper payments. The other four
                  performance evaluations we reviewed described RAC identification of
                  improper payments to varying degrees; however, these descriptions were
                  not linked to performance evaluation metrics. Finally, there were no
                  performance evaluation metrics related to referring potential fraud to
                  CMS, such as timeliness or documentation requirements, or related to
                  whether RACs had systems in place to refer potential fraud to CMS on the
                  basis of identified improper payments.




Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   16
(OEI-04-11-00680)
                  CONCLUSION AND RECOMMENDATIONS
                  RACs are designed to protect Medicare by identifying improper payments
                  and referring potential fraud to CMS. Prior Government Accountability
                  Office work has identified problems with CMS’s actions to address
                  improper payment vulnerabilities, and prior OIG work has identified
                  problems with CMS’s actions to address referrals of potential fraud.
                  Further, OIG has identified vulnerabilities in CMS’s oversight of its
                  contractors. Given the critical role of identifying improper payments,
                  effective oversight of RAC performance is important.
                  In FYs 2010 and 2011, RACs identified half of all claims they reviewed as
                  having resulted in improper payments totaling $1.3 billion. CMS took
                  corrective action to address the majority of vulnerabilities it identified in
                  FYs 2010 and 2011; however, it did not evaluate the effectiveness of these
                  actions, which may result in continued high amounts of improper
                  payments. Additionally, CMS did not take action to address the six
                  referrals of potential fraud that it received from RACs during this
                  timeframe. Finally, CMS’s performance evaluations did not include
                  metrics to evaluate RACs’ performance on all contract requirements.
                  Therefore, we recommend that CMS:
                  Take Action, as Appropriate, on Vulnerabilities That Are
                  Pending Corrective Action and Evaluate the Effectiveness of
                  Implemented Corrective Actions
                  CMS should assess vulnerabilities that are pending corrective action and
                  address them, as appropriate. CMS should also develop timeframes for
                  addressing vulnerabilities to ensure that they are resolved in a timely
                  manner. Finally, while CMS has taken corrective actions on 28 of
                  46 vulnerabilities identified in FYs 2010 and 2011, it has not determined
                  the effectiveness of these actions. CMS should evaluate whether these
                  implemented corrective actions are effectively reducing improper
                  payments.
                  Ensure That RACs Refer All Appropriate Cases of Potential
                  Fraud
                  CMS should ensure that RACs refer all appropriate cases of potential
                  fraud. To do this, CMS should identify specific examples of fraud that, if
                  RACs encounter, they should refer to program integrity contractors. CMS
                  should update these examples as needed to stay current with emerging
                  fraud trends. CMS should also facilitate increased collaboration between
                  RACs, CMS, and program integrity contractors. For instance, CMS
                  should coordinate regular meetings between program integrity contractors
                  and RACs to share information about fraudulent coding or billing schemes
                  in their respective regions and to keep RACs aware of emerging fraud
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   17
(OEI-04-11-00680)
                  schemes. Additionally, CMS should provide regular (e.g., annual) training
                  to RACs to help them refer potential fraud, as appropriate.
                  Review and Take Appropriate, Timely Action on RAC Referrals
                  of Potential Fraud
                  CMS did not provide documentation that it took action on six RAC
                  referrals of potential fraud. If CMS has not already done so, it should
                  review these referrals to determine whether additional actions (e.g.,
                  referrals to program integrity contractors) are necessary.
                  Develop Additional Performance Evaluation Metrics To
                  Improve RAC Performance and Ensure That RACs Are
                  Evaluated on Contract Requirements
                  CMS should develop additional performance evaluation metrics to
                  improve RAC performance and ensure that RACs are evaluated on
                  contract requirements (i.e., identifying improper payments). These
                  metrics could include accuracy targets for RAC determinations of
                  improper payments or similar measures (e.g., effectiveness ratings). CMS
                  should also include timeliness and other metrics for RAC referrals of
                  potential fraud. Although these should not be the only measures of
                  contractor performance, these metrics could provide important information
                  on contractor performance and improve oversight.




Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   18
(OEI-04-11-00680)
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its comments on the draft report, CMS concurred with our first, second,
                  and fourth recommendations but did not indicate whether it concurred
                  with our third recommendation.
                  CMS concurred with our first recommendation and as of June 2013
                  considers the 18 vulnerabilities pending corrective action to be closed.
                  CMS also stated that it will explore the feasibility of developing a protocol
                  that attempts to quantify the effectiveness of corrective actions using a
                  combination of tools, including data analysis, error rate measurement,
                  continued identification of overpayments via postpayment review, and
                  other factors.
                  CMS concurred with our second recommendation and stated that it
                  believes increased collaboration between RACs and ZPICs/Program
                  Safeguard Contractors (PSCs) is important, and will also ensure that
                  RACs continue to concurrently refer all instances of fraud to OIG and
                  CMS.56 Further, CMS stated that it has and will continue to provide
                  regular training to the RACs on the identification of potential fraud.
                  Although CMS did not indicate whether it concurred with our third
                  recommendation, it noted that it had reviewed the six RAC referrals of
                  potential fraud in our review. Four of the six referrals were forwarded to
                  ZPICs/PSCs to determine whether the providers have conducted potential
                  Medicare fraud. One of the other RAC referrals did not include specific
                  information to conduct an investigation. The remaining referral was
                  previously received from the Medicare Administrative Contractor.57 On
                  the basis of that referral, an investigation was initiated by the PSC and the
                  provider’s billing privileges were subsequently revoked from the Medicare
                  program in 2012.
                  CMS concurred with our fourth recommendation and stated that
                  performance metrics, such as accuracy and appeal targets, are important
                  measures and should be part of the regular performance evaluations. CMS
                  has revised the 2012 CPARS evaluations to incorporate metrics on the
                  RACs’ identification of improper payments and accuracy rates.



                  56
                     PSCs are responsible for preventing, detecting, and deterring fraud in the Medicare
                  program. CMS is in the process of replacing PSCs with ZPICs.
                  57
                     Medicare Administrative Contractors are responsible for making correct, reliable, and
                  timely payment of Medicare home health claims. These contractors should also refer any
                  instances of suspected fraud they encounter during their claims reviews to program
                  integrity contractors.
Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   19
(OEI-04-11-00680)
                  CMS also provided technical comments. In response, we made revisions
                  to the report where appropriate.
                  We ask that, in its final management decision, CMS more clearly indicate
                  whether it concurs with each of our recommendations. For the full text of
                  CMS’s comments, see Appendix C.




Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   20
(OEI-04-11-00680)
                       APPENDIX A
                       Number and Percentage of Appealed Overpayment
                       Identifications by Claim Type in Fiscal Years 2010 and 2011
                                                                                                                       Percentage of
                                                                                                                           Appealed
                                                                              Number of         Percentage of
Recovery                            Number of             Number of                                                    Overpayment
                                                                               Appealed             Appealed
Audit                 Claim              Claims        Overpayment                                                    Identifications
                                                                           Overpayment          Overpayment
Contractor             Type     Identified With       Identifications                                                Overturned out
                                                                          Identifications      Identifications
Region                          Overpayments              Appealed*                                                        of Claims
                                                                             Overturned           Overturned
                                                                                                                     Identified With
                                                                                                                     Overpayments
A                    Part A               37,570                2,399                  336                 14%                     1%

                     Part B               80,116                   521                 512                 98%                     1%

                     DME**                13,351                   668                 107                 16%                     1%

                                        131,037                 3,588                  955                 27%                     1%

B                    Part A               57,473               12,589                5,510                 44%                    10%

                     Part B               45,255                1,856                  766                 41%                     2%

                       DME                 7,740                1,281                    27                 2%                    <1%

                                        110,468                15,726                6,303                 40%                     6%

C                    Part A               78,430                6,723                1,829                 27%                     2%

                     Part B             118,986                    535                 210                 39%                    <1%

                       DME              137,922                 2,670                1,573                 59%                     1%

                                        335,338                 9,928                3,612                 36%                     1%

D                    Part A               68,213               10,554                1,319                 13%                     2%

                     Part B             205,166                18,180               13,082                 72%                     6%

                       DME              216,789                 7,222                3,544                 49%                     2%

                                        490,168                35,956               17,945                 50%                     4%

    Total                             1,067,011                65,198               28,815                 44%                     3%

            Source: Office of Inspector General analysis of Centers for Medicare & Medicaid Services appeals data, 2012. 

            *Because the outcomes could not be linked to specific RAC regions, these numbers exclude 3,968 unspecified appeals that 

            were adjudicated by Administrative Law Judges. 

            **Durable medical equipment.





Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance                             21
(OEI-04-11-00680)
                  APPENDIX B
                  Map of Medicare Recovery Audit Contractor Regions




                  Recovery Audit Contactor Regions:

                  Region A*, Performant Recovery Inc. of Livermore, California: Connecticut, 

                  Delaware, District of Columbia, Maine, Maryland, Massachusetts, 

                  New Hampshire, New Jersey, New York, Pennsylvania, Rhode Island, and 

                  Vermont. 

                  Region B, CGI Technologies and Solutions Inc. of Fairfax, Virginia: Illinois, 

                  Indiana, Kentucky, Michigan, Minnesota, Ohio, and Wisconsin.

                  Region C, Connolly Consulting Associates Inc. of Wilton, Connecticut:
                  Alabama, Arkansas, Colorado, Florida, Georgia, Louisiana, Mississippi, 

                  New Mexico, North Carolina, Oklahoma, Puerto Rico, South Carolina, 

                  Tennessee, Texas, U.S. Virgin Islands, Virginia, and West Virginia. 

                  Region D, HealthDataInsights Inc. of Las Vegas, Nevada: Alaska, American 

                  Samoa, Arizona, California, Guam, Hawaii, Idaho, Iowa, Kansas, Missouri, 

                  Montana, Nebraska, Nevada, North Dakota, Northern Mariana Islands, Oregon, 

                  South Dakota, Utah, Washington, and Wyoming. 



                  *Before August 2012, the company name was Diversified Collection Services, 

                  Inc., of Livermore, California. 





Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   22
(OEI-04-11-00680)
                               APPENDIX C
                               Agency Comments




 (.J­':ls£"-Vll't,s·




                         DEPAR"IMENT OF HEALTH & HUMAN SERVICES                                         Centers for Medicare & Medicaid Services


                                                                                                        Admi11istrator
                                                                                                        Washington, DC 20201




                       DATE:
                                          JUN 1 Z 2013

                       TO: 	          Daniel R. Levinson 

                                      Inspecior General 


                       FROM: 	        MlMi)yn 'ravemrer 

                                      Administrator 


                       SUBJECT: 	 Office of .Inspector General (OIG) Draft Report: Medicare Recovery Audit
                                      Contractors and CMS's Actions to Address Improper Payments, Referrals of
                                      Potential Fraud, and Performance (OEl-04-11-00680)


                       Thank you for the opportunity to review and comment on OIG's draft report referenced above.
                       The Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources OIG
                       has invested to review this issue. The OlG's audit focused on the corrective actions the CMS
                       took to address Recovery Audit Contractor (RAC)-identified payment vulnerabilities and the
                       actions the CMS took concerning RAC referrals of potential fraud. Lastly, OIG reviewed the
                       extent that the RACs' performance evaluations addressed performance metrics and contract
                       requirements.

                       By virtue ofCMS'~ oversight ofRACs, we continually strive to reduce the appeal rate to
                       decrease provider burden and administrative costs. The majority of Recovery Auditor
                       overpayment determinations are not appealed. Claims that are appealed can be overturned for a
                       number of reasons. For example. the provider or supplier may present additional documentation
                       during the appeal. All Medicare contractors that review claims, as well as the Qualified
                       Independent Contractors and Administrative Law Judges (ALJ), are bound by all laws and
                       regulations pertaining to the Medicare and Medicaid programs, National Coverage
                       Determinations and CMS rulings. However, ALJs are not bound by CMS manuals and Local
                       Coverage Determinations. While ALJs are required to provide substantial deference to this
                       guidance, they are not bound by this guidance and may deviate from it in their decision-making.
                       This creates discrepancies between the AU decisions and Medicare contractor decisions but
                       does not necessarily mean the Medicare contractor's decision was incorrect. A recent OlG
                       report 1 concluded. "most ALJ staff noted that ALJs often decided in favor of appellants when the
                       intent, but not the letter, of a Medicare policy was met .''

                       The oversight of the contractors, as well as the collaboration to assess RAC-identified
                       vulnerabilities, is vital for the protection of the Medicare Trust Fund. The CMS continuously
                       implements corrective actions on potential and known vulnerabilities and has implemented a
                       dynamic process for addressing these vulnerabilities. The CMS also values the collaboration
                       with program integrity contractors in our continued efforts to combat fraud, waste and abuse.

                       'Improvements needed at the Administrative Law Judge Level of Medicare Appeals - November 20!2




Medicare RACs and CMS's Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance                                        23
(OEI-04-11-00680)
                  APPENDIX C (CONTINUED)





Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   24

(OEI-04-11-00680)

                  APPENDIX C (CONTINUED)





Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   25

(OEI-04-11-00680)

                  APPENDIX C (CONTINUED)





Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   26

(OEI-04-11-00680)

                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Dwayne Grant, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta regional
                  office, and Jaime Durley, Deputy Regional Inspector General.
                  David Samchok served as the lead analyst for this study. Central office
                  staff who provided support include Althea Hosein, Scott Manley, and
                  Christine Moritz.




Medicare RACs and CMS’s Actions To Address Improper Payments, Referrals of Potential Fraud, and Performance   27
(OEI-04-11-00680)
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
